                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

Case Number: A13010013                                                                          Page 1 of 1




         We received an allegation that a Subjece submitted a proposal2 containing plagiarism. We were
         also told that the Subject subsequently contacted NSF to withdraw the plagiarized proposal,
         falsely stating he had submitted a draft instead of the final version, and that he had created a final
         proposal, in case NSF contacted him.

         We reviewed for plagiarism the Subject's proposal and three similar proposals 3 he submitted and
         did not identify verbatim plagiarism in any ofthe Subject's four proposals. We further
         determined the Subject never submitted to NSF the "final" proposal he created.

         Accordingly, this case is closed with no further action taken.




         2




NSF OIG Form 2 (11/02)
